<html>
<title> - STRENGTHENING FEDERAL SUPPORT TO END YOUTH HOMELESSNESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     STRENGTHENING FEDERAL SUPPORT
                       TO END YOUTH HOMELESSNESS

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 16, 2019

                               __________

                           Serial No. 116-34

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-320 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 16, 2019....................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     3
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Morton, Mr. Matthew, Ph.D., M.SC., Research Fellow, Chaplin 
      Hall at the University of Chicago, Chicago, IL.............     7
        Prepared statement of....................................     9
    Giovengo, Ms. Melinda, Ph.D., CEO, President of Youthcare, 
      Seattle, WA................................................    19
        Prepared statement of....................................    21
    Lowery, Mr. Robert, Jr., M.S., Vice President, National 
      Center for Missing and Exploited Children, Alexandria, VA..    28
        Prepared statement of....................................    30
    Baker, Mr. David, Support Specialist, YMCA Youth and Family 
      Services, San Diego, CA....................................    43
        Prepared statement of....................................    45

Additional Submissions:
        Hayes, Hon. Jahana, a Representative in Congress from the 
          State of North Connecticut:............................
        Missed Opportunities: Youth Homelessness In America......    66
        Homelessness In America: Focus On Youth..................    82
        Ending Youth Homelessness................................    96
        Link: Child Well Being...................................   117
    Questions submitted for the record by:
        Schrier, Hon. Kim, a Representative in Congress from the 
          State of Washington....................................   121
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia 

    Responses to questions submitted for the record by:
        Mr. Baker................................................   124
        Mr. Morton...............................................   126

 
        STRENGTHENING FEDERAL SUPPORT TO END YOUTH HOMELESSNESS

                              ----------                              


                         Tuesday, July 16, 2019

                       House of Representatives,

            Subcommittee on Civil Rights and Human Services,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 2:19 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Schrier, Hayes, Comer, 
Thompson, Stefanik, Johnson, and Foxx.
    Also Present: Representatives Scott, and Yarmuth.
    Staff Present: Tylease Alli, Chief Clerk; David Dailey, 
Senior Counsel; Paula Daneri, Education Policy Fellow; Emma 
Eatman, Press Assistant; Christian Haines, General Counsel; 
Stephanie Lalle, Deputy Communications Director; Andre Lindsay, 
Staff Assistant; Jaria Martin, Clerk/Assistant to the Staff 
Director; Richard Miller, Director of Labor Policy; Max Moore, 
Office Aide; Jacque Mosely, Director of Education Policy; 
Banyon Vassar, Deputy Director of Information Technology; 
Courtney Butcher, Minority Director of Coalitions and Member 
Services; Bridget Handy, Minority Communications Assistant; 
Dean Johnson, Minority Staff Assistant; Amy Raaf Jones, 
Minority Director of Education and Human Resources Policy; 
Hannah Matesic, Minority Director of Operations; Jake 
Middlebrooks, Minority Professional Staff Member; Carlton 
Norwood, Minority Press Secretary; Chance Russell, Minority 
Legislative Assistant; and Mandy Schaumburg, Minority Chief 
Counsel and Deputy Director of Education Policy.
    Chairwoman Bonamici. The Subcommittee on Civil Rights and 
Human Services will come to order.
    Welcome everyone. Our apologies for the delay. We did have 
votes on the floor.
    I note that a quorum is present, and I note for the 
Subcommittee that Mr. Yarmuth of Kentucky is permitted to 
participate in today's hearing with the understanding that his 
questions will come only after all members of the Subcommittee 
on Civil Rights and Human Services on both sides of the aisle 
who are present have had an opportunity to question the 
witnesses.
    The Committee is meeting today in a legislative hearing to 
hear testimony on strengthening Federal support to end youth 
homelessness. Pursuant to Committee Rule 7(c), opening 
statements are limited to the Chair and the Ranking Member. 
This allows us to hear from our witnesses sooner and provides 
all members with adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    We are here today to discuss our responsibility to provide 
every child and youth with a safe and stable environment to 
learn and grow. Today, millions of youth across the country do 
not have access to a stable home. For many of them, the effects 
of homelessness are not isolated to days or weeks or months. 
Youth homelessness has long-term consequences that undermine 
their education, their safety, and their future.
    As our witnesses will establish, youth who do not have 
access to the support and resources that come with stable 
housing are far more likely to drop out of school, fall prey to 
exploitation and human trafficking, and remain homeless as 
adults.
    In 1974, Congress recognized its responsibility to support 
youth who lack a safe and stable home by passing the Runaway 
and Homeless Youth Act. Over the last four decades Congress has 
repeatedly recommitted on a largely bipartisan basis to fund 
the law's programs to make sure that runaway and homeless youth 
receive the services they need to transition out of 
homelessness and thrive as self-sufficient individuals. 
Unfortunately, it has been more than a decade since Congress 
updated the Runaway and Homeless Youth Act. Since then, new 
research shows that youth homelessness is a public health 
crisis that demands a significant and thorough response.
    Researchers have found that over a 12-month period more 
than 1 in 30 youth between the ages of 13 and 17 and one in 10 
youth between 18 and 25 will experience homelessness. One of 
the counties I represent in northwest Oregon, Washington 
County, has reported cases of youth homelessness in the 
thousands.
    We also know that factors associated with the significantly 
higher risk of youth homelessness reflect the systemic 
challenges facing underserved communities including family 
conflict, child abuse, and experience with the juvenile justice 
and foster care systems. It is no surprise then that some youth 
experience homelessness at disproportionately higher rates. 
LGBTQ youth, for example, are at a 120 percent greater risk of 
entering homelessness compared to heterosexual or cisgender 
peers. Racial discrimination also contributes to 
disproportionate homelessness among Black and Latino youth. 
Black youth have an 83 percent higher risk of experiencing 
homelessness than their White peers, and Latino youth have a 33 
percent higher risk.
    Homelessness can also put youth at high risk for 
devastating experiences that can have long-lasting consequences 
on their development. Homeless youth are vulnerable to 
exploitation and coercion. The data show that one in five 
homeless youth are victims of human trafficking. I am going to 
say that sentence again. The data show that one in five 
homeless youth are victims of human trafficking. One in six are 
sexually assaulted or raped.
    Homeless youth who experience these unspeakable acts need 
comprehensive supports to process their trauma and rebuild 
their lives. Our deeper understanding of the causes and factors 
surrounding youth homelessness demand an updated approach to 
addressing this public health issue.
    As this Committee considers a bipartisan reauthorization of 
the Runaway and Homeless Youth Act, we must make sure that 
Federal programs engage and unite family members; approve an 
approach to transitioning youth into a safe and stable housing 
when it is in the best interest of the child; adopt trauma-
informed practices that support youth whose experiences have 
had long-lasting effects on their mental health and well-being; 
and, finally, importantly, that they do not discriminate 
against youth based on age, race, religion, gender identity, or 
sexual orientation.
    Including these provisions in Federal programs will help 
prevent children from having to experience the uncertainty and 
the trauma of homelessness. Today's hearing takes an important 
step toward achieving our shared goal of making sure that all 
children have access to safe and stable housing that empowers 
them to reach their full potential.
    And I now recognize the distinguished Ranking Member for 
the purpose of making an opening statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    We are here today to discuss our responsibility to provide every 
child and youth with a safe and stable environment to learn and grow.
    Today, millions of youth across the country do not have access to a 
stable home. For many of them, the effects of homelessness are not 
isolated to days or weeks or months. Youth homelessness has long-term 
consequences that undermine their education, their safety, and their 
future.
    As our witnesses will establish, youth who do not have access to 
the support and resources that come with stable housing are far more 
likely to drop out of school, fall prey to exploitation and human 
trafficking, and remain homeless as adults.
    In 1974, Congress recognized its responsibility to support youth 
who lack a safe and stable home by passing the Runaway and Homeless 
Youth Act. Over the last four decades, Congress has repeatedly 
recommitted--on a largely bipartisan basis--to fund the law's programs 
to make sure that runaway and homeless youth receive the services they 
need to transition out of homelessness and thrive as self-sufficient 
individuals.
    Unfortunately, it has been more than a decade since Congress 
updated the Runaway and Homeless Youth Act. Since then, new research 
shows that youth homelessness is a public health crisis that demands a 
significant and thorough response.
    Researchers have found that, over a 12-month period, more than one 
in 30 youth between the ages of 13 and 17 and one in ten youth between 
18 and 25 will experience homelessness. One of the counties I represent 
in NW Oregon, Washington County, has reported cases of youth 
homelessness in the thousands.
    We also know that factors associated with significantly higher risk 
of youth homelessness reflect the systemic challenges facing 
underserved communities, including family conflict, child abuse, and 
experience with the juvenile justice and foster care systems.
    It is no surprise, then, that some youth experience homelessness at 
disproportionally higher rates. LGBTQ youth, for example, are at a 120 
percent greater risk of entering homelessness compared to heterosexual 
or cisgender peers. Racial discrimination also contributes to 
disproportionate homelessness among Black and Latino youth. Black youth 
have an 83 percent higher risk of experiencing homelessness than their 
white peers, and Latino youth have a 33 percent higher risk.
    Homelessness can also put youth at high risk for devastating 
experiences that can have long-lasting consequences on their 
development. Homeless youth are vulnerable to exploitation and 
coercion. The data show that one in five homeless youth are victims of 
human trafficking. One in six are sexually assaulted or raped. Homeless 
youth who experience these unspeakable acts need comprehensive supports 
to process their trauma and re-build their lives.
    Our deeper understanding of the causes and factors surrounding 
youth homelessness demand an updated approach to addressing this public 
health issue. As this Committee considers a bipartisan reauthorization 
of the Runaway and Homeless Youth Act, we must make sure that federal 
programs:
    (1) Engage and unite family members--a proven approach to 
transitioning youth into safe and stable housing--when it is in the 
best interest of the child;
    (2) Adopt trauma-informed practices that support youth whose 
experiences have had long-lasting effects on their mental health and 
well-being; and
    (3) Importantly, that they do not discriminate against youth based 
on age, race, religion, gender identity, or sexual orientation.
    Including these provisions in federal programs will help to prevent 
children from having to experience the uncertainty and trauma of 
homelessness. Today's hearing takes an important step toward achieving 
our shared goal of making sure that all children have access to safe 
and stable housing that empowers them to reach their full potential.
                                 ______
                                 
    Mr. Comer. Thank you, Madame Chairwoman, for yielding.
    There are few aspects of a child's development as 
influential as the home they grow up in. For homeless and 
runaway youth, there are devastating dangers and risks that can 
compromise their safety and health. Sadly, reports indicate 
that in the United States, around 700,000 youth are without 
homes. Congress reauthorized the Runaway and Homeless Youth Act 
in 2018 which helps continue efforts to prevent childhood 
homelessness and rescue youth runaways.
    The Runaway and Homeless Youth Act's three main programs 
offer crisis intervention, such as temporary shelter, 
counseling, and family unification for runaway and homeless 
youth. Additionally, the programs support community-based 
organizations that provide homeless youth with stable and safe 
longer-term housing. The RHYA also funds outreach and education 
programs for runaway and homeless youth who have been subjected 
to serious trauma, like sexual abuse and human trafficking. 
This work is lifesaving for young Americans facing 
homelessness.
    The National Center for Missing & Exploited Children, which 
we will hear from today, also helps save and protect missing 
youth including runaway youth. The center's work is just one 
example of the multifaceted effort to protect youth. By 
engaging with corporations, law enforcement, nonprofit 
organizations and families, the National Center for Missing & 
Exploited Children also helps bring kids back home. 
Increasingly, children cared for by the state are running away, 
ending up homeless.
    While we will hear today that there is a better 
coordination to help locate these kids and get them back home, 
there is more work that can be done. There isn't a simple 
solution for youth homelessness. Children leave home for a lot 
of reasons. Some run from abuse, but others are lured by 
predators looking to harm children. That is why we need to help 
the folks on the ground, the people we will hear from today, to 
do their jobs.
    Our children are this country's most valuable asset. They 
are also the most vulnerable in our society. As lawmakers, we 
must help protect American youth from homelessness and the 
dangers it presents. Today's hearing will give us an 
opportunity to learn more about the programs serving our 
runaway and homeless youth. I look forward to the testimony 
from all of our witnesses.
    And I yield back.
    [The statement of Mr. Comer follows:]

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    Thank you for yielding.
    There are few aspects of a child's development as influential as 
the home they grow up in. For homeless and runaway youth there are 
devastating dangers and risks that can compromise their safety and 
health. Sadly, reports indicate that in the United States around 
700,000 youth are without homes. Congress reauthorized the Runaway and 
Homeless Youth Act (RHYA) in 2018, which helps continue efforts to 
prevent childhood homelessness and rescue youth runaways.
    RHYA's three main programs offer crisis intervention such as 
temporary shelter, counseling, and family unification for runaway and 
homeless youth. Additionally, the programs support community -based 
organizations that provide homeless youth with stable and safe longer-
term housing. RHYA also funds outreach and education programs for 
runaway and homeless youth who have been subjected to serious trauma, 
like sexual abuse and human trafficking. This work is lifesaving for 
young Americans facing homelessness.
    The National Center for Missing and Exploited Children (NCMEC), 
which we will hear from today, also helps save and protect missing 
youth, including runaway youth. The center's work is just one example 
of the multifaceted effort to protect children. By engaging with 
corporations, law enforcement, non-profit organizations , and families, 
NCMEC also helps bring kids back home. I increasingly, children cared 
for by the state are runnier nog away, ending up homeless. Although 
we'll hear today that there has been improved coordination among 
agencies to help locate these kids and get them back home, there is 
still more work that can be done.
    There isn't a simple solution for youth homelessness. Children 
leave home for a lot of reasons some run from abuse but others are 
lured by 1predators looking to harm children. That is why we need to 
help the folks on the ground - the people we will hear from today to do 
their jobs.
    Our children are this country's most valuable asset. They are also 
the most vulnerable in our society. As lawmakers, we must help protect 
American youth from homelessness and the dangers it presents. Today's 
hearing will give us an opportunity to learn more about the programs 
serving our runaway and homeless youth. I look forward to the testimony 
from all our witnesses.
    Thank you, I yield back.
                                 ______
                                 
    Chairwoman Bonamici. Thank you very much for your 
statement, Ranking Member.
    Without objection, all other members who wish to insert 
written statements into the record may do so by submitting them 
to the Committee Clerk electronically in Microsoft Word format 
by 5 p.m. on July 29.
    I will now introduce our witnesses. We are fortunate to 
have a distinguished panel.
    Dr. Matthew Morton is a research fellow at Chapin Hall at 
the University of Chicago with expertise in youth homelessness, 
youth development, and evidence-based practice. He is the 
principal investigator of Voices of Youth Count, the most 
comprehensive national research initiative to date focused on 
youth homelessness in America. Dr. Morton held previous 
positions at the World Bank, the U.S. Government, in 
philanthropy, and with youth-serving nonprofits. While working 
in the U.S. Department of Health and Human Services, he was a 
key contributor in the development of the U.S. Government's 
National Strategy and Framework to End Youth Homelessness.
    Dr. Melinda Giovengo -- was I close? Giovengo?
    Ms. Giovengo. Close.
    Chairwoman Bonamici. Giovengo -- I am Italian. I should 
know that, right? -- is Executive Director of YouthCare in 
Seattle, Washington. She has 30 years of experience in 
developing and implementing reengagement programs for out-of-
school and homeless youth. Melinda holds an M.A. in clinical 
psychology and a Ph.D. in educational psychology and is 
published on issues regarding youth homelessness and the impact 
of learning disabilities in hard-to-serve populations. She is 
the board chair of the National Network for Youth and a board 
member of the National Youth Employment Coalition.
    Mr. Robert G. Lowery, Jr., is the Vice President of the 
Missing Children Division at the National Center for Missing & 
Exploited Children, where he supervises the organization's 
response to reports of missing children. Previously, Mr. Lowery 
spent more than 30 years in public services as a law 
enforcement officer, as the Assistant Chief of Police for the 
Florissant, Missouri, police department and as commander of the 
Greater St. Louis Major Case Squad, the oldest and largest 
multi-jurisdictional homicide task force in the United States.
    Mr. Lowery has authored several publications, including an 
investigation and program management guide for law enforcement 
agencies responding to cases of missing and abducted children, 
as well as detailed guides promoting strategies for finding 
long-term missing children and appropriate response protocols 
for children with special needs who go missing.
    Finally, Mr. David Baker is a resident of San Diego, 
California, where he is a support specialist for the YMCA Youth 
& Family Services Program. As a formerly homeless youth, Mr. 
Baker advocates for public policy across the Nation and 
represents the boundless potential of underserved youth. He 
uses his life experience to guide the creation and 
implementation of realistic solutions to social issues like 
youth homelessness. His mission is to promote agency, access, 
and hope for the most vulnerable populations in society.
    Welcome again to our witnesses. We appreciate all of you 
for being here today, and we look forward to your testimony. 
Let me remind the witnesses that we have read your written 
statements. They will appear in full in the hearing record. 
Pursuant to Committee Rule 7(d) and Committee practice, each of 
you is asked to limit your oral presentation to a 5-minute 
summary of your written statement. Let me remind the witnesses 
that, pursuant to title 18 of the U.S. Code, section 1001, it 
is illegal to knowingly and willfully falsify any statement, 
representation, writing, document, or material fact presented 
to Congress or otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you, so it will turn 
it on, and the Members can hear you. And as you begin to speak, 
the light in front of you will turn green. After 4 minutes, the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red, your 5 minutes have 
expired, and we ask you to please wrap up.
    And we will let the entire panel make their presentations 
before we move to member questions. When asking -- excuse me -- 
when answering a question, please remember to once again turn 
on your microphone, and I first recognize Dr. Morton.

  STATEMENT OF MATTHEW MORTON, PH.D., M.SC., RESEARCH FELLOW, 
     CHAPIN HALL AT THE UNIVERSITY OF CHICAGO, CHICAGO, IL

    Mr. Morton. Thank you, Chairwoman Bonamici, Ranking Member 
Comer, and Members of the Committee for the opportunity to join 
this important hearing.
    My name is Dr. Matthew Morton. And I am a researcher with 
Chapin Hall at the University of Chicago. I lead Voices of 
Youth Count, the most comprehensive research initiative to date 
focused on youth homelessness in America. This research was 
designed in response to the Runaway and Homeless Youth Act 
through which Congress called for replicable, national 
prevalence and incidence estimates of youth homelessness and 
data concerning the population's needs and characteristics.
    I also have a family background of lived experience. I lost 
my parents at a young age and grew up with a great deal of 
turbulence at home. I had brief runaway experiences, but I was 
lucky. Teachers, coaches, and others saw potential in me. And 
they helped me to realize that potential in spite of my 
adversities. Others, like my little sister, are not so lucky. 
Their adversities escalate to enduring crisis and homelessness, 
and many of them remain invisible.
    Good data can help make the invisible visible. Evidence can 
help us know where and how to make things better for all our 
Nation's youth. As long as millions of youth do not live up to 
their potential as individuals, we don't live up to our 
potential as a Nation.
    Chapin Hall's first nationally representative survey of 
youth homelessness surfaced alarming conclusions. We found that 
1 in 30 adolescents ages 13 to 17 endure some form of 
homelessness within a 12-month period. With young adults ages 
18 to 25, the prevalence climbs even higher. One in 10 young 
adults reported some form of homelessness within a year. 
Moreover, the prevalence rates were statistically equal between 
rural and nonrural communities. As a share of the population, 
youth homelessness is just as much of a problem in rural 
America as it is elsewhere.
    Our research also shows that not all youth share the same 
likelihood of facing homelessness. Youth of color have 
significantly higher homelessness prevalence as compared to 
their White, non-Hispanic peers. Rates are especially high 
among American Indian, Alaska Native youth, and among African 
American youth. Our data also show that young people 
identifying as lesbian, gay, bisexual, transgender, or queer, 
LGBTQ, face 120 percent increased risk of homelessness.
    In addition to demographic disproportionalities, certain 
experiences indicate increased risk for homelessness. The 
single factor that we found most strongly correlated with 
higher risk for homelessness among young adults was the lack of 
a high school diploma. These young people had more than four 
and a half times the risk of homelessness as young adults who 
attained at least a high school level of education. Further, 
youth experiencing homelessness had disproportionately been in 
foster care and had spent time in juvenile detention, jail, or 
prison.
    Our research also sheds lights on connections between youth 
and family homelessness. For one thing, a large share of youth 
experiencing homelessness are parents themselves, struggling 
with housing instability while caring for young children. 
Moreover, nearly all young people link the beginning of their 
homelessness to earlier disruptions of family and home, 
including family homelessness and entry into foster care.
    For youth, homelessness is about more than the loss of 
housing. It is about the lack or loss of relationships and 
connections that others can rely on more consistently for 
support, safety, and stability. In fact, a startling 35 percent 
of youth reported the death of at least one parent or primary 
caregiver. Housing instability is but one factor that 
characterizes their journeys, which are typically shaped by 
significant trauma. We can do better. We can take steps to 
better respond to youth homelessness and to prevent it. The 
Federal Government plays a critical role in supporting data to 
inform policy in a broad range of areas.
    Likewise, we encourage Congress to consider its role in 
enabling the replication of national data on youth homelessness 
so that we can track our progress toward the goal of ending 
youth homelessness and tailor strategies accordingly.
    We cannot end youth homelessness in the dark. Adolescence 
and young adulthood are key developmental periods in our lives. 
Every day of housing instability represents missed 
opportunities to support young people's healthy development so 
that they can contribute to flourishing communities. We all 
lose out in these missed opportunities.
    Thank you.
    [The statement of Mr. Morton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Bonamici. Thank you for your testimony.
    Dr. Giovengo, you have 5 minutes for your testimony. Thank 
you so much.

STATEMENT OF MELINDA GIOVENGO, PH.D., CEO, YOUTHCARE, SEATTLE, 
                               WA

    Ms. Giovengo. Thank you.
    Good afternoon, Subcommittee Chair Bonamici and Ranking 
Member Comer and Members of the Subcommittee.
    My name is Dr. Melinda Giovengo. And for over 12 years, I 
have had the privilege of serving as the CEO of YouthCare, one 
of the largest providers of youth and young adults experiencing 
homelessness services in Washington State. I also serve as the 
Board Chair for the National Network for Youth. I am honored to 
share testimony today about YouthCare's work and our support 
for the reauthorization of the Runaway and Homeless Youth Act.
    Founded in 1974, YouthCare was one of the first RHYA 
shelters to serve runaway and homeless youth on the West Coast. 
We currently serve about 1,500 young people each year and 
operate a budget of around $17 million. I want to tell you a 
little bit about YouthCare's services and why the 
reauthorization of the RHY Act is so critical to our mission.
    First is our focus on minors experiencing homelessness. 
Across the country, States are grappling with a major system 
gap: How to support teens who may not meet the threshold of 
child welfare and dependency but also cannot return home 
safely. YouthCare's RHY shelters and transitional living 
program fill that gap in our community. Our first priority is 
always family reconciliation. Yet reconciliation takes time. 
For this reason, we support extending the length of stay at the 
Basic Center from 21 to 30 days or longer if it is permitted by 
licensing in the State.
    But for a quarter of the youth in our shelters, returning 
home will not be an option because of issues like abuse, family 
homelessness, or rejection. This is why YouthCare opened a 
transitional living program for minors in 1999. We strongly 
advocate for expanding these programs so that youth are not re-
traumatized by having to move from shelter to shelter in order 
to stay safe.
    Second, our focus on trafficked youth. Young people living 
on the streets are extremely -- at extreme risk for 
exploitation and trafficking. YouthCare requires all of our 
staff and all of our employees to attend a 2-day training on 
the unique needs of sexually exploited youth and has 
specialized case managers that support young people with 
histories of trafficking and sexual exploitation.
    This is also where outreach comes into effect, where we go 
out on the streets and find these young people before others 
do.
    Third, our focus on LGBTQ youth. LGBTQ youth face a higher 
risk of homelessness. In 1998, YouthCare opened a 
groundbreaking program for LGBTQ-identified young adults, which 
was and remains the only transitional living program for LGBTQ 
young adults in Washington State, focused on affirming young 
people's gender identity and their sexual orientation.
    Last, our focus on at-risk or overrepresented populations. 
The YouthCare staff are trained in harm-reduction, trauma-
informed care to provide services for populations most at risk 
of homelessness, including young people of color, young people 
exiting systems of care, pregnant and parenting youth, and 
refugee and immigrant young people.
    Neuroscience has shown that young people's brains do not 
reach maturation until the age of 25. They are cognitively and 
emotionally still in formation. Many youth also lack basic 
employment and life skills. For this reason, strategies, 
interventions, and outcomes for young people experiencing 
homelessness must be different than for adults. RHY is the only 
Federal funding source tailored to the unique educational, 
socio-emotional, and housing needs of young people experiencing 
homelessness. Specifically, RHY's flexible three-pillar model 
of outreach, shelter, and transitional housing, maternal group 
homes, allows us to progressively move young people across 
housing continuums without barriers, such as narrow definitions 
of homelessness and permanent housing used by HUD, which is 
why, I will just add, it is so important that you also pass the 
Homeless Children and Youth Act. Instead, RHY's definition of 
homelessness and performance outcomes of safe and stable 
housing, permanent connections, education, and employment, and 
socio-emotional and well-being enable us to design services and 
capture progress through a lens that is age-appropriate and 
reflective of generational needs, which brings me to the 
reauthorization of RHY.
    4.2 million young people in our country are experiencing 
homelessness. That number is staggering and unacceptable. 
Without targeting intervention, it also represents a pipeline 
to chronic adult homelessness, yet lifesaving services are 
woefully underfunded. RHY's recent funding was $127 million, a 
mere $30 per young person experiencing homelessness. We can end 
youth homelessness, but this investment is far from what we 
need to do so.
    RHY needs a comprehensive reauthorization, which occurred 
more than a decade ago, and this must include the 
nondiscrimination and gender-affirming language and support for 
human trafficking and prevention. YouthCare also supports 
changing all RHY grant cycles from 3 to 5 years to ensure 
program stability.
    Every young person has potential. Unleashing that potential 
will start with passing of the reauthorization of the Runaway 
and Homeless Youth Act. I have done this work for more than 35 
years. It can be hard, gritty, and yet inspiring every day. 
What keeps me going without a doubt is that we change lives and 
we save lives.
    Thank you for letting me share my thoughts, and I look 
forward to answering your questions.
    [The statement of Ms. Giovengo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Bonamici. Thank you for your testimony.
    Mr. Lowery, I recognize you for 5 minutes for your 
testimony.

STATEMENT OF ROBERT LOWERY, JR., M.S, VICE PRESIDENT, NATIONAL 
   CENTER FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, VA

    Ms. Lowery. Good afternoon, Chairwoman Bonamici and Ranking 
Member Comer and Members of the Subcommittee.
    My name is Bob Lowery. I am the vice president of the 
Missing Children Division for the National Center for Missing & 
Exploited Children, or NCMEC. It is an honor to be here today 
with you to provide NCMEC's perspective on the growing problem 
of runaway children and discuss our role in helping to quickly 
resolve cases of runaway children and how we bring them home 
safely.
    As a background, NCMEC was created in 1984 by child 
advocates as a private nonprofit organization to help find 
missing children and to reduce child sexual exploitation and to 
prevent child victimization. Since NCMEC opened its doors, it 
has been apparent that the most common reason children go 
missing today is because they run away. NCMEC knows that the 
runaway crisis is a very real problem, and it creates extremely 
dangerous situations for our children.
    Over the past 4 years, 91 to 92 percent of all missing 
child reports made today received by NCMEC are runaways. The 
average age of a runaway reported in NCMEC is 15 years of age, 
and more than half of these runaways reported to NCMEC over the 
past several years have run three to four times, many of the 
children dozens of times.
    NCMEC uses modern tools and technology, as well as 
personalized case manager attention, to help find each runaway 
child reported to us. When we receive a call about a runaway 
child, we work directly on an individual basis to provide a 
coordinated response tailored to the particular child. We are 
child-centric when the reports are made. This approach will 
include specialized analytical expertise, technical assistance, 
ongoing support to the parent, guardian who are in crisis, the 
law enforcement agency responsible for the search and 
investigation of what happened to that child, the social 
service agencies working to find the child as well.
    NCMEC operates a 24-hour-a-day hotline that receives calls 
each and every day of the year relating to runaway children. 
Our call center is bilingual, and we have access to third-party 
interpretation services in nearly 200 languages. We also 
operate streamlined electronic reporting for social service 
agencies to enable them to quickly report critical information 
to NCMEC when a child in foster care runs away.
    As part of NCMEC's unique intake process for runaways, we 
gather specific information and conduct a risk assessment for 
that individual child. This helps us evaluate if the child has 
things like social media accounts, which are very prevalent 
today, or if they have been communicating with anyone online 
who wish to do them harm or suffers from other endangerment, 
such as alcohol or drug use; victimization by child sex 
trafficking; gang recruitment or enticement; pregnancy or other 
medical conditions that raise their risk; and, of course, self-
harm and suicidal tendencies. Over the past 4 years, 72 percent 
of the reported runaways suffered from one or more of these 
serious endangerments.
    While NCMEC treats all reports of runaway on an individual 
basis, we have seen significant increases in the numbers of 
children who are running from foster care or another form of 
State care managed by a social service agency.
    The increase came as a result of Congress' enactment of the 
Preventing Sex Trafficking and Strengthening Families Act of 
2014. The new law required for the first time that children 
missing from State care be reported immediately to law 
enforcement and to NCMEC. We were strong supporters of that law 
because it enables NCMEC to provide consistent services to 
previously underserved populations of runaway children. Since 
the passage of the law, NCMEC reports of children running from 
State care have nearly tripled. NCMEC has worked tirelessly 
with State and local social service agencies, as well as Health 
and Human Services, and our partner nonprofits to create 
streamlined reporting systems and educational programs to share 
NCMEC's unique expertise and knowledge regarding runaways so we 
can best protect them.
    As detailed in my written testimony, NCMEC knows our 
mission is amplified when we work with public and private 
partners to help identify and locate runaway children and bring 
them home safely. NCMEC partners with dozens of technology and 
social media, retail, and print media companies who help us 
distribute current images of the child where we geolocate to 
specific targeted areas where the child may be, which increases 
our chance of someone in the public recognizing that missing 
child and reporting it.
    We analyze data on online data so we help determine where a 
child may be while, as I say, most of our children now have 
social media presence. We glean lots of information about where 
they may have gone or who they may be in contact with. We alert 
the entire community to ensure that the runaway receives the 
same public attention and concern as any other type of missing 
child.
    As NCMEC enters into our fourth decade of working with 
finding missing children, we know there is a lot more that can 
be done to help locate and recover runaways and find stable 
placements to ensure that they do not fall into the cycle of 
repeated runs that have longstanding detrimental impacts on 
their health and safety.
    NCMEC is fortunate to be joined in this mission by the 
Subcommittee and our public and private partners, and we look 
forward to continuing in our work with all of you.
    Thank you for this opportunity to appear before the 
Subcommittee to discuss this very important topic.
    [The statement of Mr. Lowery follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Bonamici. Thank you for your testimony.
    Mr. Baker, I recognize you for 5 minutes for your 
testimony.

  STATEMENT OF DAVID BAKER, SUPPORT SPECIALIST, YMCA YOUTH & 
                 FAMILY SERVICES, SAN DIEGO, CA

    Mr. Baker. Thank you. Good afternoon, Subcommittee Chair 
Bonamici, Ranking Member Comer, and Members of the 
Subcommittee. Thank you for inviting me here today to testify 
before you.
    My name is David Baker. I am a proud Youth Advocacy Council 
member with the National Network for Youth and a support 
specialist with the YMCA Youth and Family Services Department 
in San Diego, California.
    I came here from San Diego to demonstrate the potential of 
opportunity youth when given the tools and resources and to 
express the value and absolute necessity of Federal programs 
like the Runaway and Homeless Youth Act. I come from a 
background of intergenerational homelessness, which means my 
mother was born into homelessness and her mother was also born 
into homelessness. So access to stable housing was something 
that my family has never known.
    The trauma that my mother incurred from her childhood led 
her to cope with alcohol and drug use. Unfortunately, it seemed 
there was no place for my mother to address her trauma. The 
shelter would kick us out for bed rotation at 7 a.m., and it 
seemed the liquor stores were open by 9. So I would go into 
school knowing that, by the time I got out, my support system 
would be broken.
    Due to a lack of resources in our area, housing, financial, 
and food insecurity, plagued my family until at about 16 years 
old I understood that there just weren't enough to meet my 
basic needs. And I ran away. Instead of being a burden to my 
struggling mother -- and this is an extremely common occurrence 
amongst youth where their living conditions are so bad that 
they see the streets as a place of opportunity, but what I 
found in the street was the opposite of opportunity. I found 
the threat of imprisonment, the threat of trafficking, and the 
threat of death.
    Years went by with no diversion opportunities or support 
offered to me, and I found myself couch surfing as a freshman 
in college. After hurdling the barriers to receive financial 
aid as a homeless student, I bought an old car. And that became 
my home. The backseat was my bedroom. The front seat was my 
kitchen. And the San Diego County Sheriff was my alarm clock, 
waking me up every morning to remind me that my safe place was 
temporary.
    I completed multiple homeless vulnerability assessments but 
came to accept that there just weren't enough housing 
opportunities for nonfoster homeless youth. Also, I didn't want 
to enter traditional homeless HUD shelters or programs because 
of the trauma of my childhood. I knew what to expect there. And 
like many homeless youth, I found my car as a safer 
alternative.
    This living situation continued until I received a call 
just a few days before my 22nd birthday from a TLP through the 
YMCA. You know, it is amazing to think that if I had just been 
a few days older, I would have been led to continue sleeping in 
a place that isn't suitable for human habitation. This 
opportunity completely changed the trajectory of my life. In 
this TLP, I found myself surrounded by trauma-informed 
professionals who genuinely wanted the best for me. For the 
first time ever, I had a support system that wasn't broken or 
toxic or damaging to my life in any way, and I was empowered to 
use my experience as a homeless youth to help my peers, which 
led to a position within the Y, and today, I facilitate 
workshops across San Diego County that teach youth in our Basic 
Center, Transitional Living Programs to effectively address 
their trauma. These workshops include skills like emotional 
regulation, distress tolerance, and thoughtful decisionmaking, 
all extremely essential for navigating a life of trauma and 
keeping those kids in their homes.
    I have also created entrepreneurial workshops for our youth 
that feature a comprehensive look at financial literacy and 
work readiness. This information was transformative for me, and 
I am grateful to be sharing these tools, and it is amazing to 
see the resiliency and growth of youth in our programs, but I 
know we are just scratching the surface. There are so many of 
us who need these programs but just don't have the access 
because of the Federal investment being so small compared to 
what is needed.
    Please know that every dollar that you invest tells a young 
person like me that their dreams and their goals matter, and 
they are valuable, and they should have the opportunity to 
flourish. When you invest in us, our entire society benefits. 
And you can see me as a living example of that.
    Through programs funded by the Runaway and Homeless Youth 
Act, I was given a foundation to build a life of prosperity. I 
was given a chance to change my family history forever. Today, 
I ask you to please make that a possibility for every youth 
because they deserve it. Before, I was a youth in the street 
with no resolution in sight. But, today, I am so much more than 
that. I am a taxpayer. I am an exceptional entrepreneur. And 
last, but certainly not least, I am an advocate.
    Thank you all again for allowing me to speak.
    [The statement of Mr. Baker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Bonamici. Thank you so much, all of you, for 
your very powerful testimony.
    We under Committee Rule 8(a) we will now question the 
witnesses under the 5-minute rule and, as Chair, I will start 
and be followed by the Ranking Member, and then we will 
alternate between the parties.
    And I am going to start with Dr. Giovengo. Homeless youth 
are at an increased risk for trafficking and sexual 
exploitation. A study by researchers at the University of 
Pennsylvania and Loyola University found that one in five 
homeless youth were victims of human trafficking and girls as 
young as 10 years old had been forced into sex trade. Many 
children have no way out because their traffickers use physical 
force and intimidation to keep them from seeking help.
    So how does your organization use staff training -- you 
mentioned in your written testimony -- and leverage the 
partnerships with local organizations to help identify and 
serve victims of trafficking? And how can Congress support 
these efforts to protect children and youth from trafficking 
and exploitation?
    Ms. Giovengo. Thank you.
    I want to say that YouthCare was actually started to really 
address the issue of sexual exploitation in Seattle, and so we 
have always been very aware of the issue in our community.
    Currently, we run a program called the Bridge Continuum, 
which is exactly what you described as a multidisciplinary, 
multi-agency intervention strategy to help young people who 
have been trafficked. Through street outreach, through 
specially trained advocates, and through partnerships with 
trauma informed-care therapists, substance-abuse specialists, 
workforce development specialists, we have been able to create 
a wraparound service model for these young people. It is not 
just a stand-alone model. It is a model that has lived inside 
of our runaway and homeless youth programs for 40 years, and we 
have actually expanded that in our community and around the 
state of Washington in replicating that model in other 
communities.
    So, I think that it is important for folks to understand 
that the Runaway and Homeless Youth Program's Basic Centers, 
Outreach, and Transitional Living Programs are our first line 
of prevention for these young people who are being trafficked, 
and they can be -- and like at YouthCare, all of our staff, 
everyone, including my accounting staff, are trained in the 
recognition and the services needed for helping these young 
people exit the streets and getting into a safe and stable 
environment.
    Chairwoman Bonamici. Terrific. Thank you so much.
    Dr. Morton, currently the two Federal agencies collecting 
data on the problems of child or youth homelessness are the 
Department of Housing and Urban Development and the Department 
of Education but counts of homeless youth vary widely across 
these two agencies. For example, HUD's Point-in-Time count 
identified 168,267 homeless youth in 2017. Yet your study 
identified 4.2 million homeless youth.
    So how do each of these agencies collect data on youth 
homelessness and what definition does each agency use to decide 
whom to include in their counts and why is it so important that 
the counts of homeless youth include those who are doubled up? 
What can Congress do to make sure we are getting the highest 
quality data on the prevalence of runaway and homeless youth?
    Mr. Morton. Thank you, Chairwoman.
    These different counts and estimates serve different 
purposes. HUD's counts aren't meant to capture primarily 
shelter and street-based homelessness on a specific night. 
Education captures reported homelessness over the course of the 
year. Both are different forms of capturing homelessness as 
they are presented to a system, largely, whereas a nationally 
representative survey, like the one we did, does not depend on 
the young people that emerge to a system or that are formally 
reported or identified visibly in the streets.
    This is important because much of youth homelessness is 
hidden. We find that young people experience many different 
forms of homelessness and housing instability over a period of 
time. They can come in and out of homelessness, and this is 
different than what we see with older adult chronic 
homelessness, for example. To be able to capture that 
hiddenness, it is important to capture the full spectrum of 
young people's experiences and not just at one point in time, 
but over a period of time. And this is why we have taken this 
particular approach to complement the data that we get about 
young people coming into systems and services through education 
and HUD.
    Chairwoman Bonamici. Thank you for your work.
    I am going to yield back the balance of my time. I 
recognize Ranking Member Comer for his questions and --
    Mr. Castro. Stefanik.
    Chairwoman Bonamici. I recognize Representative Stefanik 
from New York for 5 minutes for her questions.
    And Representative Hayes is going to take over for me.
    I yield back.
    Representative Stefanik.
    Ms. Stefanik. Thank you, Madam Chair.
    I represent one of the most rural districts on the East 
Coast. I represent 194 towns and villages. It takes about 5 
hours from one side to the other of my district. Homelessness 
in rural communities is different, and the resources are 
different than homelessness in urban and suburban communities. 
So my questions are going to focus on how we can address this 
challenge in rural communities and what specific solutions we 
have for rural America.
    So, first, Dr. Morton, the Voices of Youth Count indicates 
that homelessness is almost as common in rural areas as it is 
in urban areas, at least for youth and young adults. Can you 
tell us if these percentages hold true for other age groups, 
and what are some of the unique aspects of helping to provide 
services for the homeless and prevention services in rural 
communities?
    Mr. Morton. Thank you, Congresswoman.
    It is a very good question and a very important issue to 
highlight. We do find with our data that youth homelessness is 
just as prevalent as a share of the population in rural 
communities as it is in nonrural communities. Now there are 
more youth experiencing homelessness in urban communities 
because there are more people living in urban communities. But 
as a share of the population, it is just as much of a challenge 
in rural communities.
    At the same time, it doesn't necessarily look the same in 
rural communities as you alluded to. Young people are about 
twice as likely to be couch surfing, staying with others in 
rural communities, or even more likely to be literally homeless 
on the streets or in places not meant for human habitation in 
rural communities. They are about half as likely to be staying 
in shelters, often because the shelters don't exist. In rural 
communities, they are inaccessible, or they are not youth-
specific.
    So this underscores the need for much more creative and 
resource outreach efforts and working across public systems and 
services and community-based organizations that could be coming 
into contact with young people.
    Ms. Stefanik. Do you or does anyone on the panel have 
examples of particularly effective outreach efforts in rural 
communities? Because the access is an issue. Transportation is 
an issue. You know, hunger in rural areas is an issue, too. And 
that is very much tied to the challenge of homelessness.
    Does anyone have best practices you would like to 
highlight?
    Ms. Giovengo. Well, this is Dr. Giovengo speaking.
    And I think that one of the things we have seen in 
Washington State and some of our rural communities are really 
the gathering of local resource providers to kind of create 
what I would call a virtual one-stop for young people and 
reaching into the schools early and often to make sure that we 
are identifying those young people who are experiencing 
homelessness.
    Obviously, faith-based organizations have stepped up in 
many communities. In one community in Washington State, Whidbey 
Island, we have a very extensive model of host homes where the 
community has gone out and found community providers to help, 
community people to actually help house young people in 
emergency situations.
    So I think that there are unique challenges, but most of it 
is getting the information consistently out in places where we 
know young people are and even in rural areas, schools probably 
are the best way we can reach them early and we need to start 
before the crisis hits so that they -- before they drop out, 
they know how to get homelessness resources when the crisis 
hits.
    Ms. Stefanik. And, Mr. Lowery, I wanted to ask specifically 
about different protocols or actions taken to help find someone 
who goes missing in a rural community rather than if they go 
missing in an urban or suburban community.
    Ms. Lowery. Well, yes, there are differences in our 
approach to that, but, of course, all missing children are 
pretty much treated the same. What we look for is we do a risk 
assessment anytime a child goes missing and pretty much can 
give us an idea of where that child may have gone and 
oftentimes, especially with our runaway children, there is a 
specific place that they might go or specific individuals they 
may be with. Oftentimes, though we find that some of our 
children are despondent or may be suffering from some mental 
illnesses and things, which does make that challenge much more 
challenging for us when it goes to that search.
    So, at the National Center for Missing & Exploited 
Children, we have protocols for searching rural areas, which is 
a different protocol than you would say searching suburban or 
densely populated urban areas. So we will send those 
representatives on site to work with the sheriff's office or 
the local agencies to aid them in the rescue of that child. We 
will have them there usually within just a few hours. But for 
us, you know, a missing child is a missing child. And they go 
missing for a variety of reasons.
    The only difference that we do see in rural areas is that 
we -- I think every area struggles with resources for these 
children, especially after they have been found, and rural 
areas, I think, certainly suffer from that phenomena.
    Ms. Stefanik. Thank you.
    Yield back.
    Mrs. Hayes. [Presiding.] Thank you.
    I now recognize the Committee Chairman, Mr. Scott, from 
Virginia.
    Mr. Scott. Thank you. Thank you, Madam Chair.
    And I want to thank all of our witnesses for being with us 
today.
    Mr. Baker, you indicated that we need to make investments 
in young people to make sure they are not homeless. Exactly 
what do you mean? What should we be investing in?
    Mr. Baker. I believe just ensuring that these funds are 
available for these innovative programs so that the TLPs, the 
Basic Centers, and especially those outreach teams, to ensure 
that they have everything that they need to get the job done.
    Youth homelessness and youth struggle as a whole comes in 
many different unique forms, and every single individual's need 
is as unique as their character is, so ensuring that the money, 
you know, the blood of it is all is available so that these 
folks can access these services and overcome their barriers, 
whatever they may be.
    Mr. Scott. Well, if you find the homeless and provide 
emergency services, you still need to do something to deal with 
the underlying problem.
    What should we be doing, Dr. Giovengo? Do you want to 
answer what we should be doing to deal with the underlying 
problem?
    Ms. Giovengo. Thank you for the question.
    I would say that youth homelessness is way more than just a 
house and a roof over a young person's head, and we must 
address the issue from a 360 perspective. Young people, we will 
not end youth homelessness unless we are partnering with the 
education and employment systems to get these young people back 
on kind of traditional pathways so they can become self-
sufficient. It is very different than an adult who has had life 
experiences with housing and jobs.
    You know, giving a young person just a place to live is not 
enough. We have to be able to provide them with the education, 
employment, mental health, healthcare, and really support to 
become a full individual and understand what their needs are 
and how they can build their own talents and scope moving 
forward.
    Mr. Scott. You mentioned education. Is on-campus 
educational experience one of the solutions?
    Ms. Giovengo. I think for some young people it is. I mean, 
we run drop-in schools. We also have -- we run a YouthBuild 
program is that an employment and training program for homeless 
young people. We run prevention services inside of on-campus 
educational facilities to help young people stay in school and 
help their families from going homeless so they don't lose 
schools.
    So I think being at all points where a young person can 
begin to drop away from mainstream systems is critical in order 
to prevent them from ending up in a chronic state of 
homelessness.
    Mr. Scott. Now, on-campus educational experience would 
probably be after high school. What could we do before high 
school graduation?
    Ms. Giovengo. Well, I think being in those post-secondary -
- being in high schools is critical. Running programs like 
National Safe Place in communities, which gives young people 
resources when they first think about running away and to 
access.
    On campus, I do think that we need to address the post-
secondary access to housing. One of the things we see -- and I 
have dropped many a young person off at college -- and the 
first question they ask me when I start to leave is, where do I 
go at Thanksgiving? And you will find young people end up in a 
crisis situation at those natural juncture points where they 
don't have any place to live and the campus is shut down.
    So we have to think about how we are going to support young 
people who do not have traditional families and/or friends to 
be able to go home to during those break periods and give them 
the pocket money and things that we would give our own children 
to be able to fit in and be normalized in that situation.
    Mr. Scott. When they shut down the campus over 
Thanksgiving, that sounds like something we can do, work with 
the college to make sure that shouldn't be a problem.
    Ms. Giovengo. Absolutely.
    Mr. Scott. Are there peculiar challenges when you talk 
about parenting, either the child or the homeless older child 
who has a child herself? Is that a unique challenge?
    Ms. Giovengo. Absolutely.
    I mean, to be honest with you, we need more maternal care 
group homes for young people, especially for minors who have 
children. Right now, there are very, very few places for a 17-
year-old to go with an infant child.
    And, just recently, we had a young person that was living 
in her car on Monday and, on Tuesday, stayed with a friend and, 
on Thursday, was back in her car and had a housing assessment 
through the HUD definition and wasn't eligible because she had 
stayed with her mom one night and the night before she had been 
safe.
    So we have to think about how we are preventing young 
people from accessing the services, especially these young 
families and especially these young women, and I would say that 
putting those young parents into adult systems is not helpful, 
because you are talking about a child parenting a child, and we 
actually have to help the young person who is the parent learn 
the skills to be self-sufficient on their own, as well as help 
coach them through parenting a very young infant.
    Mr. Scott. Thank you, Madam Chair.
    Mrs. Hayes. Thank you.
    I now recognize the Ranking Member of the Committee, Ms. 
Foxx, from North Carolina.
    Ms. Foxx. Thank you very much, Madam Chair.
    Mr. Lowery -- and thanks to all the witnesses for being 
here. Mr. Lowery, this hearing is about the Federal Runaway and 
Homeless Youth programs. However, in addition to learning about 
the work done under these programs, we thought it was important 
to highlight the work done to help a child when they are 
missing because they ran away.
    Can you discuss why it is important to focus on what we do 
to help bring the child home as much as on providing services 
if they are experiencing homelessness or preventing them from 
leaving home in the first place?
    Ms. Lowery. Thank you, Ms. Foxx.
    And, yeah, I think you are absolutely correct and we agree 
that all children, either homeless or runaway, are in crisis, 
and we know that it is very important that we intervene as 
quickly as we can when that child is reported missing.
    We do work with homeless shelters all over the U.S. when a 
child goes missing from those shelters, but, in general, we 
also work with all runaway children, and every one of those 
children are in crisis, and we have to get them back as quickly 
as we can. But hence this is where it becomes the issue is 
that, while finding the children is something that we do each 
and every day, but that is only half the battle. It is keeping 
them in those safe places so they are encouraged not to leave 
there and they stay in a safe environment, and this is the 
challenge that we face each day. And we depend on our partners, 
our other NGOs and nonprofits out there that provide services 
for these families and these children so that they are 
encouraged not to run away and find themselves in harm. As I 
testified earlier, many of our children don't run just once. 
They run multiple times, and each and every time, we can tell 
that with increasing severity of the risks that these children 
face.
    So we know that we need early interventions, and sometimes 
we find that those sources are not always available as we need 
them.
    Ms. Foxx. Mr. Lowery, I want to follow up. You mentioned 
the need to evolve in your work to continue helping to find 
missing children. Can you explain this in more detail and share 
some examples of what this has looked like over time? And, 
finally, what harm can occur if you are not constantly 
evaluating and improving your methods?
    Ms. Lowery. Yes, thank you, Ms. Foxx. That is an excellent 
question.
    You know, in our 35 years of existence, you know, we find 
that essentially we are constantly evaluating the work that we 
are doing. We are evaluating trends because a lot has changed 
in those 35 years since we first opened our doors. You know, 
the behaviors of children have changed. The behavior of 
offenders has changed. We are seeing social media now as 
ingrained in our culture as one good example is nearly all of 
our children have some social media presence. And while we find 
social media to be a wonderful tool and a wonderful part of our 
daily lives and it has helped us when it comes to finding, 
locating, and recovering children, it also has those that use 
that platform for nefarious purposes by luring our children, 
engaging them in conversations that are inappropriate, and 
eventually convincing those children to go along with them.
    We have entered into an age now that we have to be very, 
very on guard. We have to learn from those experiences, and we 
know as a center that constant evaluation on how we can get 
better. So we work with our technology partners that we have at 
the national center. We have availabilities of some of the best 
in the world that help us with those very issues on how we can 
identify those kids.
    So, to your point, ma'am, is that, yes, the world has 
changed. And we have to stay at our best when it comes to 
protecting our children.
    Ms. Foxx. And one more question, Mr. Lowery.
    Your testimony talked about work being done to prevent a 
child from running away again. What are some of the things the 
center does to help families keep those children home? Are 
there workshops the center puts together for local 
organizations and families to help know what to watch for, be 
concerned about what may lead to a child running away again?
    Ms. Lowery. Yes, ma'am.
    Matter of fact, I am very glad you asked that question 
because this is something that we pride ourselves in it, 
because we know that finding these children is as important as 
the prevention work that we must do to keep them safe. Because 
if we can keep a child and discourage them from running, we 
know that child is going to live a long, prosperous life.
    We have discussion guides that have been developed at the 
National Center that we share with parents and guardians on 
recognizing early warning signs of when a child may be 
susceptible to wanting to run away or escape an environment 
that may be detrimental to them and what they might do, how it 
would intervene with that child. With third parties, they could 
engage to help them before that child goes.
    As importantly is we have guides that also guides parents 
that if the worst should happen, that child goes missing, what 
they need to do, and what they really need to do is they need 
to report immediately because time is the enemy when children 
are missing. And we need to act as quickly as we can and 
mobilize to get those children back. Every missing child is 
important to us, but keeping them safe is the challenge that we 
face each day. There are no waiting periods when it comes to 
missing children. We remind parents of that each and every day: 
report immediately.
    The other thing I want to point out is we have a lot of 
online safety guides that protect children when they are using 
these electronic platforms, and it is age-appropriate material 
that can be found at the web site at the National Center that 
can be shared with children, and we share that information also 
in schools, with educators, so that children are taught that, 
while we have some wonderful things available to us today, 
there are some inherent dangers that our children just need to 
be aware of and how to avoid them.
    Ms. Foxx. Thank you, Madam Chair.
    I yield back.
    Mrs. Hayes. Thank you.
    I now recognize Ms. Schrier from Washington.
    Ms. Schrier. Thank you, Madam Chair.
    Thank you to all of our witnesses. I was so impressed by 
all of your testimonials, and I have a couple of questions.
    First, Dr. Morton, thank you for laying out all the 
different ways that these kids and young adults are counted 
because there are vast differences.
    And, Dr. Giovengo, I wanted to let you know that I was in 
Auburn at a temporary living shelter for homeless youth. I 
believe it is up to age 18. On the same day that King County 
released their remarkable homeless count, which showed a 
dramatic decrease from the year prior, all the people sitting 
around the table said that is complete baloney. We all know 
that because we know where these kids are on the streets. We 
drove the neighborhoods the night before. And the night of the 
count, they weren't there. They theorized that perhaps they 
were handed bus tickets out of town, that perhaps they were 
caught up in the criminal justice system.
    And I wondered if either one of you could maybe speak to 
the intersection between homeless youth and the criminal 
justice system. And then I will get to another question.
    Mr. Morton. Sure. Thank you very much, Congresswoman.
    So we do know that there is a significant overlap between 
juvenile criminal justice involvement and the experience of 
youth homelessness. In fact, 46 percent of young people 
experiencing homelessness on a specific night that we surveyed 
across 22 counties had been in juvenile detention, prison, or 
jail, and that is not even counting other forms of contact with 
the criminal justice system.
    It doesn't mean that all young people exit these systems 
directly into homelessness, but it does mean that, like youth 
in child welfare, like youth in behavioral health systems, this 
is a population that is at significant risk and in need of 
additional screening to look for risk factors or situations of 
housing instability and to align appropriate supports and 
services and to collaborate with these young people themselves 
so that they can teach us what types of solutions make the most 
sense for them.
    Ms. Giovengo. I would agree with Dr. Morton. In King County 
in particular, YouthCare does exceptional work inside of 
juvenile detention to prevent young people from exiting on the 
streets. As far as the count goes, the one night count in 
January at 2 in the morning, you are probably not going to see 
a lot of young people anyway. But on the positive side, 
Washington State has done some remarkable investment, through 
their Office of Homeless Youth, in terms of addressing the 
issue of minors experiencing homelessness, which is where we 
saw the biggest drop. And that included expanding beds, i.e., 
more Basic Center beds, more Basic Center opportunities, more 
outreach opportunities, to find those young people and get them 
reattached, and to actually, you know, begin early with family 
intervention, family supports, family reconciliation, which is 
the primary really target of all of the RHY services. As soon 
as we see a young person, it is about getting them back to 
family, a family that is safe and stable. And so we try to do 
that immediately. But targeted resources help, and I think we 
have seen some of that in Washington State.
    Ms. Schrier. Thank you. I had a question about resources. 
Because that same temporary shelter said that for a year -- and 
this is just my memory here -- it was in the tens of thousands 
of dollars for each young person they had there.
    And I am looking at what Federal funding is, and I am 
hearing the number $30 per homeless youth per year. And I am 
embarrassed that I am even sitting here having this discussion, 
because it is nothing, what the Federal Government is 
providing.
    I am wondering what your other funding sources are and what 
more we can do or whether there are other Federal programs that 
overlap that help these kids.
    Ms. Giovengo. Sure. I think that is really important, 
because the Runaway and Homeless Youth Act is kind of the 
anchor point in communities, and that is why every community 
should have a Runaway and Homeless Youth Program. When we have 
an RHY program, we can then leverage that $3 and $4 to $1 
through our State dollars, sometimes, not so much anymore, but 
occasionally through HUD, through our Workforce Investment Act 
dollars, through our local homelessness dollars, through 
private philanthropy, and really create comprehensive services.
    At YouthCare, each bed for an under 18 young person costs -
- bed, not per child, but each bed that we keep open on each 
night is about $55,000 a year, because of licensing and license 
requirement, which are critical, and in order to provide a high 
quality of care, making sure that young person is getting to 
school, getting to workforce development, doing family 
reconciliation, having access to mental health and substance 
disorder treatment. All of that, you know, comes into a basic 
center in order to meet the developmental needs of young 
people, and it is really critical.
    The Federal investment needs to be much higher. I am not 
going to, you know, let everyone off the hook there, but it is 
only part of the solution, but it does provide the anchor in a 
community and the philosophy of how we should be addressing 
these needs in communities.
    Ms. Schrier. Thank you. Thank you to all of you. And then I 
have run out of time, but I will submit questions for you, Mr. 
Baker, in terms of what services were most helpful to you and 
what would you like to see more investments in. Thank you to 
all of you.
    Mrs. Hayes. Thank you.
    I now recognize the gentleman from Pennsylvania, Mr. 
Thompson.
    Mr. Thompson. Thank you, Madam Chairwoman, Ranking Member.
    Thank you for this hearing on an incredibly important 
topic. It is rather sad what happens to kids, to our children. 
You know, we see that manifest itself in so many ways, whatever 
the issues are. A lot today obviously with escalation with 
substance abuse, opioid abuse, but a breakdown of the family. 
Sometimes, you know, just, you know, the impact of poverty that 
occurs for whatever reason.
    And so I really appreciated hearing all of your testimony. 
I apologize I had to step out. I am actually hosting a hearing 
on Tuesday's Children, and they are having it kicked off. But I 
was here for your testimony, and I appreciate the experience 
and the compassion that each of you bring to this hearing.
    Mr. Lowery, I want to thank you for being here, taking time 
out of your busy schedule. As you know, the Runaway and 
Homeless Youth Act aims to end childhood homelessness and 
rescue youth runaways. During the 2017-2018 school year in my 
home State, Pennsylvania public schools totaled 4,101 
unaccompanied homeless youth. That is not acceptable. Our 
children are this country's most valuable asset, and, 
unfortunately, they are also the most vulnerable in our 
society.
    So, Mr. Lowery, given your work with the National Center 
for Missing & Exploited Children, how does the Center interact 
with homeless shelters and organizations that work to provide 
safety services to homeless and runaway youth, and are there 
improvements to those interactions you would like to make?
    Mr. Lowery. Thank you, Mr. Thompson. And thank you for that 
question. Exactly what we do at the National Center for Missing 
& Exploited Children, we do interact with those homeless 
shelters, whether it is family youth shelters, whether they are 
group homes or they are just drop-in facilities.
    We take reports now, because of our work with the Children 
Missing from Care initiative, which under the Preventing Sex 
Trafficking and Strengthening Families Act requires that they 
be reported. So we are interacting with agencies in all 50 
States now and all regions of the United States when it comes 
to missing children.
    And, of course, when you are talking about homeless 
children, it exacerbates the problem when they run away from 
that environment because, oftentimes, as you say, they are the 
most vulnerable children that we have in our society today. 
There are those that are waiting for them, luring them from 
that environment, luring them into things such as horrendously 
into child sex trafficking. Gangs target these children for 
recruitment or affiliations so that they can carry out some of 
the things for the gangs.
    So we are seeing all sorts of victimization with these 
children as well. Sexual exploitation. But sexual and violent 
victimization is also something else that we don't find to be 
uncommon with all of our runaway children.
    But I think you bring up another point is what we would 
like to see in a perfect world would be when we find these 
children, we can return them to a safe place. Oftentimes, we 
are going to find that those children are going to simply walk 
away and continue their cycle of running away. And it is a very 
frustrating issue for us.
    As I said, finding the children is only half of the work 
that we have to do. It is how do we keep them there. And 
oftentimes we are lacking services and those important 
interdictions to show these children that there is a better 
life for them out there than what they are seeking or what they 
are being encouraged to do by those who are taking advantage of 
their situation. And I think this is where, if we had anything, 
I would believe that would be what we would really wish for.
    Mr. Thompson. So what type of services? You mentioned in 
general you would like to see the services that would be 
instrumental in facilitating that. What type of services in 
particular, you know, would it be good to be able to expand or 
to improve upon?
    Mr. Lowery. Well, you know -- and that is an excellent 
question. I think what we would like to see is more services 
directly to that child and their family so that we can keep 
them together and strengthen that position so that the child 
isn't in a position where they find circumstances undesirable, 
or maybe there are circumstances within the home that need to 
be improved.
    I think Mr. Baker made some very excellent points about his 
own situation that really exemplifies the points that I am 
making. Because oftentimes our children are running because 
they are seeking a better life for themselves. They have a lack 
of self-worth sometimes, and they are running from a situation.
    So the more that we can get interventions for those 
children and help them improve their lives, the better I think 
we will serve that population of kids. But, as I said, 
sometimes, you know, we do find that some places have adequate 
services, and many others do not.
    Mr. Thompson. Thank you, Madam Chair.
    Mrs. Hayes. Thank you.
    I now recognize Mr. Johnson from South Dakota.
    Mr. Johnson. Thank you, Madam Chair.
    Mr. Lowery, we will keep on with you. I thought you did a 
good job in your testimony talking about the role of technology 
and how it can be used by predators to make children more 
susceptible to running away.
    So are there data or statistics that can help us get a 
better sense of how acute or pervasive this problem is?
    Mr. Lowery. Well, yes, we can provide you some more 
additional information. I don't have that with me here today. 
But I can tell you that our experience at the National Center 
is most children today have some sort of online presence. You 
know, the social media and the availability of smartphone 
technology and computers for children now has made our world, 
frankly, a better place, but it is also an area where predators 
are seeking our children for victimization.
    We are seeing cases now where they are making contact with 
our children in online chat rooms or on social media apps. And 
these conversations might take place but over periods of days, 
weeks, months until they have gained the confidence of that 
child.
    Mr. Johnson. Almost a grooming process.
    Mr. Lowery. Absolutely, it is a grooming process. And this 
is something that we are extremely concerned with because then 
our children are being coerced into doing something they would 
not normally do, and that is go with those offenders. Too 
often, when these reports are made, because it doesn't present 
itself to law enforcement, the officer taking the report sees 
that child as a runaway. And we think it is something more than 
that, so we dig deeper into that.
    Mr. Johnson. So is there something that NCMEC is using? Is 
there something families can be doing to help, you know, push 
back against this negative influence of technology?
    Mr. Lowery. Absolutely. In fact, we specifically target our 
families with information about how social media and how the 
interaction with our children, both good and bad. There is 
safety material on there as well. But at the same time is that 
we remind parents that they are the first line of defense when 
it comes to their children. You know, oftentimes we find that 
children are reluctant to share information with their parents 
because of the inappropriateness of the conversations of which 
they have been engaged. So we remind parents: Do not be 
judgmental when it comes to your child. There is one villain in 
this story, and it is not the youth.
    Mr. Johnson. And at least for me, as the father of, you 
know, three young sons, if I only bring up these topics once a 
year as sort of the big scary conversation, then people have a 
tendency to clam up. The more regularly that I can integrate 
some of these conversations about how do you make good 
decisions, how do you take care of yourself, how do you make 
sure your friends are making good decisions, then it seems more 
like just a part of a good conversation between a parent and a 
child. Does that sound about right?
    Mr. Lowery. You know, and I think you bring up a point too. 
It is not necessarily bad parenting. It is just the fact that 
we are living in a social media world that has a culture this 
way. And that, while we are parenting in a world that is 
dominated by social media, we are, frankly, policing in an area 
that is dominated by social media. So it is gaining that 
understanding.
    Frankly, you know, someone my age didn't have the 
understanding until, of course, I have been in this job that, 
say, my grandson would have. They are far more keen to how this 
technology evolves and how they can utilize this technology to 
communicate with their friends, communicate with their 
siblings. So, oftentimes, we find that the parents are not 
always the best source of information when it comes to this. 
When we know that a child has run away and we can't explain 
why, we are going to be speaking with the siblings. We are 
going to be seeking their friends. What is their online 
presence? And it is not always apparent with those initial 
reports. That is why we dig in and do a very comprehensive risk 
assessment.
    Mr. Johnson. So my district, the entire State of South 
Dakota has, you know, nine reservations as well as, you know, 
tens of thousands of Native peoples living on and off 
reservation. You know, does NCMEC have particular resources 
that they are deploying to Indian Country that can help with 
this issue?
    Mr. Lowery. Absolutely. We are in Indian Country quite 
frequently. We have programs, not only with AMBER Alert -- 
frankly, I was in Arizona and New Mexico recently helping the 
Navaho Nation establish their AMBER Alert program. But we are 
very, very active in our interventions with Indian and Tribal 
communities, which are oftentimes considered to be underserved.
    You know, the reports of missing children sometimes are 
sparse, and we encourage the reporting. So we are sharing with 
their law enforcement agencies and the families not to be 
hesitant to report their children missing. We are there to help 
them and provide those services. But we have been very, very 
active in that regard, especially up in the north.
    Mr. Johnson. Well said. Thank you, Mr. Lowery.
    Thank you, Madam Chair, and I yield back.
    Mrs. Hayes. Thank you. I now recognize myself for 5 
minutes.
    So welcome to the witnesses. I have heard a lot of things 
today that really has got me thinking about some things back at 
home. One of the things in my hometown in Waterbury, 
Connecticut, we have the largest homeless youth population in 
my community. And as an educator, I always saw kids who were 
transitioning out of high school faced with these challenges.
    And I reached out this week in preparation for this hearing 
to our shelter, to some of our community foundations. And one 
of the things I found out was that we have the largest -- let 
me be more specific -- the largest homeless LGBTQ youth 
population, and part and parcel due to the fact that Waterbury 
has the largest capacity of homeless shelters.
    But our homeless shelter assigns anyone who comes according 
to their identity, their sexual orientation at birth. And many 
of these young people end up on the street as a result of that. 
So our community has really just become the place where all of 
this happens.
    I guess, Mr. Lowery, is there anything as we are thinking 
about that specifically, young people being assigned to dorm-
style shelter units by their gender identity at birth, is there 
any way that we can assure that youth are getting the services 
that they need and not going to the streets instead of going to 
a shelter, because of issues like that?
    Mr. Lowery. Well, you bring up an excellent point, ma'am. 
The LGBTQ community is obviously a very vulnerable population 
of children. But when those reports are made -- and we get 
those reports quite frequently of children who run away -- the 
sexual orientation is not really relevant to the work we are 
doing. We are assessing the risk that child faces instead.
    So we don't keep this particular data on that population of 
kids nor any other population, because race, sex, and sexual 
orientation is only part of the work that we do. And it is 
using that information that we have about the individual child 
to assess the risk that they face. Oftentimes, we know that 
those children face higher rates of victimization, so that 
raises that risk level.
    Mrs. Hayes. But specifically about this -- I don't mean to 
cut you off. I just don't want all my time to run out.
    Dr. Giovengo, do you have any information in that specific 
area?
    Ms. Giovengo. Yes. At least YouthCare's practices and I 
think the practices of most of the RHY programs around the 
country is to be gender-affirming and supportive of young 
people. So, as they come in, they basically identify the gender 
that they identify as, and we then assign them beds or units 
based on their choice and their selection. Their self-identity 
is gender-affirming, --
    Mrs. Hayes. Thank you.
    Ms. Giovengo. -- which I think is really critical for their 
safety.
    Mrs. Hayes. Two other things that I want to elevate right 
now, and I will ask both my questions at once so that if we get 
to the end of the time, at least I will have asked the 
questions.
    The first one is we are talking a lot about youth who are 
of the age to make the choice. I know there are also lots of 
minors who are homeless youth. And, again, in this city, where 
we have the largest homeless shelters, we have a lot of 
families who are housed there.
    And what I saw was in the summer, you know, you had a mom 
who lived in the shelter but had full-time employment and was 
on the pathway to stable and secure housing, but because there 
was no school, they often were forced to quit their jobs, 
because they now had to leave the shelter at 9 a.m. and be out 
all day and had nowhere to put their children.
    So I am going to come back to you, Dr. Morton, on this. 
Does your research address any of the wraparound services that 
we can provide for people as they are on the pathway to stable 
and secure housing, even while they are homeless?
    And then my next question is something that we touched upon 
earlier. I have worked so hard as an educator so many times to 
get kids through our high school system, get them enrolled in 
college, get them on a campus. And, just like you said, when 
the campuses go on break, these kids are back in a situation 
and often can't recover. You know, are on the Dean's list, have 
been doing amazing work; go through the summer and can't 
return.
    So, again, what are the wraparound services we can provide? 
So, with the remainder of my time, I would like Dr. Morton and 
Mr. -- or even Mr. Baker, because you have had some experience 
here.
    Mr. Morton. Thank you very much, Congresswoman.
    I would say that, you know, the research certainly 
reinforces that young people need housing stability, and 
permanent housing is a basis for success in areas elsewhere, 
but also underscores the fact that youth homelessness is a 
product of more than housing instability. It is also about 
ruptured relationships, a lack of education, an ability to 
connect to a long-term career path with stable income in the 
context of rapidly increasing housing prices.
    So all of these connected supports and services are really 
essential to young people and that they are offered in a 
trauma-informed way and that they establish meaningful long-
term connections in the community for young people that they 
can utilize and engage beyond the life of the specific housing 
program.
    Mrs. Hayes. Thank you. Unfortunately, my time has expired, 
but I just want us all to think about and be reminded that 
these are -- like you said, it is not just the housing. It is 
all of those connected services and the extension of what 
happens to these children in our communities. I guess I am 
yielding back to myself.
    I now recognize the Ranking Member of this Subcommittee, 
Mr. Comer from Kentucky.
    Mr. Comer. Before I begin my questions, Mr. Baker, I just 
have to say that I was very impressed with your story. You 
certainly are an inspiration. I am glad that you serve now as 
an advocate because you should be a role model to the youth 
that we are talking about today.
    And I just wanted to publicly say that, Mr. Lowery, you 
took a lot of time to discuss why it is important to consider 
these kids as missing rather than as runaways or something 
else. How successful has the Center been in getting communities 
to see that, and what kind of education do you do to help 
spread that message?
    Mr. Lowery. Thank you, Mr. Ranking Member. Yes, what we 
find is very frustrating, is that we face a desensitized and an 
apathetic public when we advertise the fact that this child was 
a runaway, in fact, so much so that, several years ago, we made 
a conscious decision to remove that designation from our 
posters when we are facing to the public. Unfortunately, the 
public doesn't understand the endangerments these children 
face. So, instead, now we embarked on an education program and 
sharing of information program so that we raise public 
awareness of the endangerments. And we are seeing progress, 
although it is coming in increments.
    We know also that the public is now starting to recognize 
that they play a role when it comes to finding our children in 
our communities. And we also know that media -- frankly, it was 
very difficult for us to get media attention for a child if 
they knew that child was a runaway. So we are starting to get 
better media attention to our children, especially when we 
start talking to them about that risk that child faces.
    So, if they are in danger, we are getting much better -- 
and law enforcement is doing a much better job. We have been 
sharing best practices, recommendations with law enforcement. 
We encourage rapid response, rapid search that is being 
adopted. And, frankly, I am working right now with our partners 
at the International Association of Chiefs of Police to develop 
model policies for response to missing children that we hope 
will be soon adopted by most agencies across the country.
    Mr. Comer. A child that is missing is a crisis, no matter 
where they come from or who they are. However, sometimes it 
helps to have better information about the child to try to 
locate them faster. What kind of information is important, and 
how does the Center spread that information out in a useful 
manner to help local organizations find and bring the child 
home?
    Mr. Lowery. Excellent question. Yes, sir. When we get a 
report of a missing child, immediately at the time that report 
is being made, we are taking information from the caller. As I 
say, we are a child-centric organization, meaning that we don't 
treat that child as a number, that we treat that child as a 
person.
    And each child that goes missing we know is a unique event. 
So, therefore, we are looking for information on who that child 
may be with, where they may be heading, why they left the 
environment that they left, if they had a social media presence 
with someone who may have been in contact with them that 
encouraged them to leave that safe environment.
    We are also watching very intently on whether or not these 
gangs are in contact with our kids, encouraging them to come 
there. And, again, these children are especially vulnerable to 
that kind of contact because they lack that sense of belonging 
oftentimes and maybe that sense of self-worth. So they are 
looking for someone who would look after them or possibly even 
protect them. Obviously, we know that is probably not the best 
choice to be made. But, again, we are not in the circumstances 
of those children. So we have learned from all that through 
that risk-assessment program.
    Also, each and every child is assigned to one singular case 
management team at the National Center. So they know that child 
better than anyone else and the behaviors. So when that child, 
as I say, goes reported missing more than once, that case 
manager is going to know where they have been found in the 
past, who they have been in the company with. So they are 
sharing that information with law enforcement and the social 
service agencies to expediently return that child to a safe 
place.
    Mr. Comer. My last question I am going to ask Mr. Baker: Is 
there anything in particular that we in Congress should be 
aware of as we look at programs to help vulnerable children or 
anything you would like to mention that would be helpful for us 
to know?
    Mr. Baker. Thank you for the question, Ranking Member 
Comer. I think one thing that Congress should be aware of is 
the Homeless and Foster Youth Act of 2019. This act would 
streamline the process for applying for financial aid, 
receiving financial aid. It would help students access housing, 
and it would designate a higher education liaison to, you know, 
hold a place for these students to access services.
    In San Diego, the community college that I went to had an 
equity office, and that was a place where students could go to 
get a little sticker on their ID so that they didn't have to 
self-identify that they were homeless. It also gave us access 
to showers in the morning, which is essential for somebody who 
is trying to get themselves together, especially while trying 
to avoid self-identifying, which is one of the main things that 
keeps a young person from accessing services.
    Mr. Comer. Well, thank you very much.
    My time has expired, and I yield back.
    Mrs. Hayes. Thank you. I now recognize the gentleman from 
Kentucky, Mr. Yarmuth.
    Mr. Yarmuth. I thank Chairwoman Hayes and Ranking Member 
Comer and also for the witnesses for being here. I am very 
grateful to the Committee to allow me to participate in today's 
hearing. I would also like to thank again the witnesses.
    And I am here because I am the lead Democrat on the 
reauthorization of the Runaway and Homeless Youth and 
Trafficking Prevention Act, which I am working to finalize now 
with Representative Bacon here in the House and with Senators 
Leahy and Collins in the Senate.
    This hearing presents a great opportunity to discuss how we 
can strengthen our RHY programs and work toward ending youth 
homelessness altogether. Youth homelessness is an issue that I 
have focused on throughout my time in Congress, and the 
testimony presented today demonstrates the need for increased 
support from the Federal Government in these critical programs.
    Investing in children is the most important investment we 
can make in our Nation's future, and homeless youth are among 
the most vulnerable people in our communities. We know that 
homeless youth are at high risk for developing physical, 
behavioral, and emotional problems and potentially becoming 
victims of sex and labor trafficking.
    Given the right support, we can help these young people 
effectively transition into adulthood, become competitive in 
the workforce, and positively contribute to society. Yet, 1 in 
10 young adults and 1 in 30 adolescents are homeless and in 
need of services, which clearly exceeds the resources of RHY 
programs.
    For the young people who do receive RHY services, the 
current funding level limits that assistance to $30 per day per 
young person, on average. So we have two gaps to fill between 
those who need services and those who are getting it and the 
level of services provided to each young person and what is 
needed, to make sure each individual is safe and set up to 
succeed, which brings me to my questions.
    Dr. Giovengo, your testimony talks about the importance of 
extending the grant length from 3 to 5 years. Could you tell us 
how that change would improve service delivery to young people?
    Ms. Giovengo. Absolutely. This is something that we are 
very passionate about in the field, because the 3-year grant 
cycle really keeps our staff on kind of pins and needles about 
if they are going to have a job. And that constant 
reauthorization really doesn't allow us to develop especially 
young staff into excellent staff and maintain them over time.
    People change people. That is what makes a difference in 
the lives of our young people that we serve. And the better we 
are able to maintain both the programming, the consistency of 
the people, and the quality of the people that we have in 
programs makes a huge difference. A commitment of 3 to 5 years 
allows us to focus our resources on, you know, developing a 
workforce that are the experts and that can stay committed to 
the young person.
    I mean, I submitted a story in my written testimony about a 
young man, a young person that said, you know, 3 years, worked 
with the same person over 3 years. That is how he got out of 
homelessness. And so I think that one of the things it allows 
us to do is stabilize these programs and help build the kind of 
community sustainability that we need to keep them going in 
whatever economic times.
    Mr. Yarmuth. Just following up, what would you like to see 
Congress do other than extend the duration from 3 to 5 years, 
for Congress to do to strengthen these programs?
    Ms. Giovengo. Well, I think we have talked about the idea 
of going from 21 to 30 days, and where licensing allows it even 
longer for young people, so that we can actually work on long-
term placement for young people, either getting them back home 
or building more transitional living programs for those minors 
16 to 18 years old so that they are not just discharged to 
another shelter.
    I think those are two critical pieces, extending the 
timeline, working on the length of the grant. And, of course, 
the level of funding would be critical. We need, you know, way 
more than $127 million to have an RHY program in every 
community. And I think Congress needs to recognize the cost of 
dealing with minors and licensing and having quality services.
    Helping young people regain their lives, ending 
homelessness is an expensive undertaking. And I would say that 
we turn away young people, you know, every day all across this 
country. And, you know, just as a saying, you know, traffickers 
don't have wait lists. So, when they can't be served by us and 
when we don't have a resource in a community, someone is right 
there waiting for them, and we need to be there to ensure that 
these young people's lives are not destroyed and trauma loaded 
over time.
    Mr. Yarmuth. Thank you.
    And, Mr. Baker, I really don't have time to ask a question, 
but I want to, once again, congratulate you and thank you for 
your testimony. I remember the first time we had a hearing on 
the Runaway and Homeless Youth Act. And we had a young man 
named Robbie who had come through our Safe Place program in 
Louisville, Kentucky, and he had everybody in the room in tears 
because his story was so inspirational, and yours is as well.
    So, once again, let me thank the Subcommittee for allowing 
me to participate. And as someone that serves the district 
where Safe Place was started and is now the home for National 
Safe Place headquarters, I am very, very proud to be a part of 
this effort.
    So thanks again, and I yield back.
    Mrs. Hayes. Thank you. That is the end of our questioning. 
Thank you all for your time.
    I remind my colleagues that, pursuant to the Committee 
practice, materials for submission for the hearing record must 
be submitted to the Committee Clerk within 14 days following 
the last day of the hearing, preferably in Microsoft Word 
format. The material submitted must address the subject matter 
of the hearing. Only a Member of the Committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the Committee Clerk 
within the required timeframe, but please recognize that, years 
from now, that link may no longer work.
    And now, without objection, I would like to enter into the 
record a research brief from Chapin Hall detailing that a 
comprehensive study of the national prevalence of youth 
homelessness showed that 4.2 million youth experience 
homelessness each year; a report from the U.S. Interagency 
Council on Homelessness summarizing what the Federal Government 
knows about the scale of youth homelessness and identifying the 
gaps in robust data on youth homelessness; a guide from the 
U.S. Interagency Council on Homelessness summarizing strategies 
and promising practices for ending youth homelessness; and a 
report from the U.S. Government Accountability Office on child 
well-being showing that homelessness has increased among 
students and families in recent years.
    Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    CHILD WELL BEING: https://www.govinfo.gov/content/pkg/CPRT-
116HPRT40976/pdf/CPRT-116HPRT40976.pdf
    Mrs. Hayes. Again, I want to thank the witnesses for their 
participation today. What we have heard is very valuable. 
Members of the Committee may have some additional questions for 
you, and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be held open for 
14 days in order to receive those responses. I remind my 
colleagues that pursuant to committee practice, witness 
questioning for the hearing records must be submitted to the 
majority committee staff or Committee Clerk within 7 days. The 
questions submitted must address the subject matter of this 
hearing.
    I now recognize the distinguished Ranking Member for his 
closing statement.
    Mr. Comer. Thank you, Madam Chairwoman. And thank you all 
for coming here today and sharing your stories and thoughts on 
runaway and homeless youth. You all confirmed the sad reality 
that homeless youth face grave dangers. I am happy to hear 
about your efforts to help keep these children safe. What we 
know is that this work continues and that it is critical to 
engage many partners in the work to bring these children home 
and help keep them home.
    I particularly appreciated hearing about various facets of 
work to help save these children, including the efforts 
undertaken by the National Center for Missing & Exploited 
Children. The work they do when a child goes missing is 
critical and is a vital part of the system to provide help to 
protect runaways and homeless children. The service with our 
other witnesses are equally important to saving these children. 
And, finally, without good data, we can't properly assess our 
work and know what works. All these parts combine to help 
protect children, and I want to thank you again for all the 
work that you do.
    Thank you, and I yield back.
    Mrs. Hayes. Thank you. I now recognize myself for the 
purposes of making a closing statement.
    Today's hearing made clear to the Members of this 
Subcommittee that youth homelessness is a pervasive issue that 
demands our attention. Congress has a responsibility to ensure 
all children and youth have access to stable housing. As our 
witnesses shared, youth homelessness is not only an urgent 
public health crisis facing millions of youth across the 
country, it is a threat to the safety and development of our 
country's future.
    Without stable housing, far too many young Americans cannot 
access the resources and support that are so crucial to 
excelling in school, staying safe from horrific abuse and 
sexual exploitation, and learning to live self-sufficient and 
independent lives.
    Importantly, today's hearing also confirmed that youth 
homelessness is not experienced equally across all communities. 
Systemic discrimination throughout our society subjects 
children in underserved communities to a significantly higher 
risk of suffering the long-lasting consequences of youth 
homelessness.
    As our witnesses shared, family disputes, abuse, and 
experience with the juvenile justice and foster systems push 
LGBTQ youth and Black and Latino youth into homelessness at 
disproportionately higher rates. Young parents are also more 
likely to face homelessness, putting not only themselves at 
risk but also their young infants and toddlers, whose lives are 
just starting.
    After hearing what our witnesses had to say, I do not think 
anyone disagrees that Congress must update and improve Federal 
policy to help eliminate youth homelessness. Drawing from our 
discussions today, I look forward to working with each of my 
colleagues to pass the bipartisan reauthorization of the 
Runaway and Homeless Youth Act we so urgently need.
    We need a reauthorization that meets the needs of young 
adults by extending the length of time youth can stay in Basic 
Center programs and prioritize family engagement when it is in 
the best interests of the youth. We need a reauthorization that 
centers trauma-informed practices to effectively serve and 
support youth who have been victims of abuse, trafficking, or 
sexual exploitation. And we need a reauthorization that ensures 
that young people, no matter where they find shelter, do not 
face discrimination or abuse, based on their age, race, 
religion, gender identity, or sexual orientation.
    I hope that all of us here can work together to realize 
these priorities and take long overdue steps to ensure that no 
child in this country endures the trauma and uncertainty of 
youth homelessness. Our Nation's children deserve no less.
    Thank you all for your time here today. If there is no 
further business, without objection, the Committee stands 
adjourned.
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.

                                 [all]
</pre></body></html>
